<html>
<title> - TO DIRECT THE PRESIDENT TO DEVELOP A STRATEGY TO OBTAIN OBSERVER STATUS FOR TAIWAN IN THE INTER- NATIONAL CRIMINAL POLICE ORGANIZATION, AND FOR OTHER PURPOSES; AND EXPRESSING DEEPEST CONDOLENCES TO AND SOLIDARITY WITH THE PEOPLE OF NEPAL FOL- LOWING THE DEVASTATING EARTHQUAKE ON APRIL 25, 2015</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
             TO DIRECT THE PRESIDENT TO DEVELOP A STRATEGY TO 
               OBTAIN OBSERVER STATUS FOR TAIWAN IN THE INTER-
               NATIONAL CRIMINAL POLICE ORGANIZATION, AND FOR 
               OTHER PURPOSES; AND EXPRESSING DEEPEST CONDOLENCES
               TO AND SOLIDARITY WITH THE PEOPLE OF NEPAL FOL-
               LOWING THE DEVASTATING EARTHQUAKE ON APRIL 25, 
               2015

=======================================================================

                                 MARKUP

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                       H.R. 1853 and H. Res. 235

                               __________

                              MAY 20, 2015

                               __________

                           Serial No. 114-47

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                                 
                  U.S. GOVERNMENT PUBLISING OFFICE
94-689PDF             WASHINGTON : 2015                  
                                 
________________________________________________________________________________________                                
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1572657a55766066617d7079653b767a783b">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 1853, To direct the President to develop a strategy to 
  obtain observer status for Taiwan in the International Criminal 
  Police Organization, and for other purposes....................     2
H. Res. 235, Expressing deepest condolences to and solidarity 
  with the people of Nepal following the devastating earthquake 
  on April 25, 2015..............................................     7
  Amendment in the nature of a substitute to H. Res. 235 offered 
    by the Honorable Matt Salmon, a Representative in Congress 
    from the State of Arizona, and chairman, Subcommittee on Asia 
    and the Pacific..............................................    11

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD

Markup notice....................................................    20
Markup minutes...................................................    21
Markup summary...................................................    22
TO DIRECT THE PRESIDENT TO DEVELOP A STRATEGY TO OBTAIN OBSERVER STATUS 
 FOR TAIWAN IN THE INTERNATIONAL CRIMINAL POLICE ORGANIZATION, AND FOR 
 OTHER PURPOSES; AND EXPRESSING DEEPEST CONDOLENCES TO AND SOLIDARITY 
WITH THE PEOPLE OF NEPAL FOLLOWING THE DEVASTATING EARTHQUAKE ON APRIL 
                                25, 2015

                              ----------                              


                        WEDNESDAY, MAY 20, 2015

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:11 p.m., in 
room 2172, Rayburn House Office Building, Hon. Matt Salmon 
(chairman of the subcommittee) presiding.
    Mr. Salmon. The subcommittee will come to order. We meet 
today pursuant to notice to mark up two bipartisan measures. As 
your offices were notified on Monday, it is the intent of the 
Chair to consider en bloc the following items which were 
previously provided to members, and are in your folders. The 
first bill is H.R. 1853, To direct the President to develop a 
strategy to obtain observer status for Taiwan in the 
International Criminal Police Organization. And the second bill 
is House Resolution 235, Expressing the deepest condolences to, 
and solidarity with, the people of Nepal following the recent 
devastating earthquakes, and Salmon amendment 70 in the nature 
of a substitute to H.R. 235. Without objection, these items 
will be considered as read and will be considered en bloc.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Salmon. I will now recognize members to speak on these 
items, beginning with myself and the ranking member. Today, we 
consider measures H.R. 1853 on ``Taiwan joining Interpol,'' and 
H. Res. 235 on ``Condolences and support for relief efforts in 
Nepal after their devastating earthquake.'' For 36 years, the 
Taiwan Relations Act has helped promote peace and stability in 
Asia, and facilitated a productive relationship between the 
United States and Taiwan. In the spirit of the Taiwan Relations 
Act, I, along with the chair and ranking members of both the 
full Committee on Foreign Affairs and the Subcommittee on Asia 
and the Pacific, Mr. Royce, Mr. Engel, and Mr. Sherman, 
introduced important legislation that advocates the U.S. 
Government's support of Taiwan's efforts to obtain observer 
status in the International Criminal Police Organization, also 
known as Interpol.
    Interpol was designed to promote the widest possible mutual 
assistance between all criminal police authorities. From 1964 
until 1984, Taiwan enjoyed full membership in Interpol, but was 
removed when the People's Republic of China applied for 
membership. This bill will require the President to develop a 
strategy to obtain observer status for Taiwan in Interpol. 
Specifically, it requires an official request for observer 
status for Taiwan, active urging of member states to assist in 
the effort, as well as a status report to Congress.
    Taiwan's observer status would promote stability and 
security in the Asia-Pacific region and assist Taiwan in 
protecting the safety of its citizens by combating criminal 
activity through access to Interpol's global police 
communications systems. Taiwan currently relies on the United 
States and other countries' second-hand information, and it is 
unable to share information on criminals to member countries, 
generating inefficiencies in addressing criminal activity 
throughout the region.
    With the rise in terrorism across the globe, not allowing 
Taiwan independent and easy access to Interpol is an 
unnecessary and a very dangerous risk. It is with this 
knowledge of the potential contributions Taiwan could provide 
that I wholeheartedly support H.R. 1853, which closely reflects 
Congress's support for Taiwan. I also want to thank Chairman 
Royce, Ranking Member Engel for helping us move this bill 
swiftly through the full committee process. And we look forward 
to the full committee markup tomorrow on this bill.
    Next, I would like to express my support for H. Res. 235, 
which raises awareness on the ongoing efforts by our government 
and other international actors to respond to the crisis in 
Nepal. It further encourages rescue efforts to focus on 
vulnerable populations, such as women and children. The 
resolution has garnered over 110 bipartisan cosponsors. I have 
an amendment in the nature of a substitute that updates numbers 
on our aid efforts, that draws attention to the sacrifices of 
our Marines, and that focuses on the specific threats to women 
and children.
    On April 25, 2015, Nepal was hit with a devastating 7.8 
magnitude earthquake northwest of the capital, Katmandu. The 
earthquake claimed the lives of over 8,000 people, with 
thousands more reported injured, critical infrastructure 
damaged, including roads, hospitals, and homes. The United 
Nations estimated upwards of 8 million people were impacted by 
this earthquake, with 1.4 million people in need of immediate 
food assistance. After a quick response, led on the U.S. front 
by USAID, with the Departments of State and Defense, search and 
rescue operations had neared conclusion, the rise in casualties 
began to slow, and international humanitarian relief began to 
clear the road to recovery.
    Then on May 12, Nepal was struck again, with a 7.3 
magnitude earthquake near the capital, this time to the east. 
This second earthquake claimed more lives and disrupted relief 
efforts. It was after this second event that we learned of one 
of our military helicopters going down in Nepal. We were 
saddened to hear the subsequent confirmation that we lost all 
six, all six Marines aboard and the two Nepali soldiers 
traveling with them. It would be impossible for the 
subcommittee to properly thank these fine men and women for 
their great service. The sacrifice they made is far too great, 
and words are far too inadequate. We take solace in the fact 
that they served our Nation by doing something truly American, 
helping pick up our friends when they have fallen. In fact, 
Arizona, we lost one of our own, one of our brightest and best 
in our efforts in delivering aid to Nepal, Lance Corporal Jacob 
A. Hug. Coincidentally, he has the same name as my 34-year-old 
son, and I spoke to his father yesterday for about 20 minutes 
on the phone. It was a very heartfelt exchange. And I want you 
to know that this family, they don't harbor any bitterness. 
They are so very proud of their son. They are proud of the life 
that he gave in the service of his fellow beings. And I am 
proud of him too, and I am proud of all of them.
    This resolution expresses Congress's deepest condolences 
for all individuals affected by this tragic natural calamity. 
Yet the resolution also recognizes how, in the midst of this 
chaos, our government, especially USAID, the State Department, 
and the Department of Defense have stepped up to provide 
unparalleled support. And I couldn't be prouder of them.
    We also commend the global NGO community for their ongoing 
humanitarian response, and their selfless efforts and 
sacrifices. It is going to be a long road to recovery for 
Nepal, and it will be essential that the international 
community, both governments and NGOs, work closely with the 
Nepalese people to rebuild. I urge the committee's support for 
these two measures, and I now recognize the ranking member for 
his comments on today's measures.
    Mr. Sherman. Thank you, Mr. Chairman, for this markup, 
these two bills, and the subsequent hearing. The White House 
has scheduled and invited me to a meeting on Iran. And if this 
chair is absent for a while, it is not for any frivolous 
decision. Both of these bills are important. As to the Taiwan 
Interpol bill, I am pleased to be the chief Democrat on the 
bill or lead Democratic sponsor, and whatever the proper title 
would be. I strongly support the bill, of course. Taiwan 
functions as an independent country, and needs to function as 
an independent country inside international organizations. To 
date, Taiwan has been admitted to only one international 
organization, the World Health Organization, under the title 
observer status. This fiction that Taiwan is part of China 
complicates so many international affairs, but we cannot allow 
it to prevent effective law enforcement against criminal gangs 
and international criminal organizations.
    As things stand now, Taiwan gets some information from the 
International Police Organization, Interpol, but it is not 
consistent, it is not reliable. Taiwan doesn't have real-time 
access to Interpol's networks and systems. And this hurts not 
only the people of Taiwan, but people all over the world that 
are potentially the victims of criminals who cannot be 
apprehended because we don't have an efficient sharing of 
information and efficient multinational law enforcement. It is 
for this reason I support the bill, which will direct the 
President to develop a strategy to obtain observer status for 
Taiwan in the International Criminal Police Organization, and I 
look forward to this bill sailing through Congress, and 
hopefully being executed robustly by the administration.
    As to the people of Nepal, I represent Northridge. And we 
know the calamity that an earthquake can cause. I am pleased to 
be the Democratic lead sponsor on this piece of legislation. As 
you pointed out, 8,000 and more have been killed, \1/2\ million 
homes destroyed or badly damaged, 2 million people displaced. 
This has been a terrible disaster, not only the first 
earthquake, but the aftershocks, including the major aftershock 
which the chairman briefed us about.
    I look forward, between now and when we go to full 
committee, to amending this resolution to first take note of 
the Americans who have sought to provide assistance. We have 
the two special task forces that were deployed to Nepal; one 
from Fairfax, Virginia, the other from Los Angeles, California. 
I know Gerry Connolly wants to make sure that this resolution 
recognizes them. And, of course, you noted the Arizona hero 
that lost his life trying to help the people of Nepal.
    In addition, Mike Honda suggested to me that we, in the 
resolving clauses in this resolution, focus on the importance 
of preventing violence against women. And I look forward to 
working with you on language to focus on that as well. I look 
forward to the international community sustaining its effort to 
help the people of Nepal. I thank you, Mr. Chairman, for 
working with me on both resolutions, and look forward to them 
going through the full committee and the floor of the House. 
And I am torn, but I do think I have to go to the White House 
pretty soon.
    Mr. Salmon. I thank the ranking member. And I know that it 
is the lot of those of us that work in Foreign Affairs that 
juggling multiple balls at the same time has become an art form 
that we have to all master. And before I yield to any other 
members that would like to make opening statements, one thing I 
did want to say, especially in terms of our Marines that lost 
their lives, one of the Scriptures that has given me a lot of 
comfort through the course of my life, and one that I just 
think is so poignant to this time is this: ``Greater love hath 
no person than this that he would give his life for another.'' 
And I take great comfort in that. It is the greatest act that 
any human being can do, and that is to give their life for 
somebody else. And that is what these brave soldiers have done. 
Any folks on the Republican side? Mr. Chabot, would you like to 
open?
    Mr. Chabot. Thank you. I will be brief, Mr. Chairman. I 
want to express my support for both pieces of legislation under 
consideration here this afternoon, H. Res. 235 and H.R. 1853, 
as you indicated. I am a cosponsor of H. Res. 235 because it is 
critical that we support the United States humanitarian 
response efforts to the devastating earthquake that hit Nepal 
last month. Our relationship with Nepal is strategically 
important, among other things, because of its key location 
between India and China, of course. But on a humanitarian 
level, we certainly need to reach out. As you indicated, our 
men and women in uniform and otherwise are doing that. And 
some, unfortunately, have made the ultimate sacrifice. In the 
days and weeks and months ahead, the challenges and needs will 
only grow more serious for the people of Nepal. It is important 
that they know we stand by their side.
    I am also a cosponsor of H.R. 1853, and support efforts to 
help Taiwan gain observer status in the International Criminal 
Police Organization. I happen to be, along with my colleague to 
my left, Mr. Rohrabacher, two of the lead original founding 
Members of the Congressional Taiwan Caucus, along with Sherrod 
Brown and Robert Wexler, when he was a Member.
    Mr. Rohrabacher. Are we the only ones left?
    Mr. Chabot. We are. At least in this august body. And at 
the end of the day, allowing Taiwan to participate in Interpol 
is beneficial for all of us. As the world has become more 
interconnected, the sharing of information has increased 
exponentially, which, in general, is a good thing. But it has 
also resulted in the expansion of terrorist networks and 
criminal activities on the Internet as well.
    For that reason, allowing Taiwan to have observer status in 
this organization will foster greater security, safety, and 
peace across the region and around the globe by giving it real-
time information on criminal and global criminal activities 
that happen to cross Taiwan's borders. Readily having this 
access will allow Taiwan to serve as a responsible member of 
the international community.
    As we have seen with Taiwan's participation in the World 
Health Assembly and International Civil Aviation Organization, 
Taiwan's participation in this institution is no different. It 
will only continue to promote global safety and security that 
benefits everyone. I also agree--I would like to say I agree 
with what Mr. Sherman said before because I don't say that all 
the time, but I definitely agree when he said that this idea 
that Taiwan is really not a country is just fiction. It is a 
country, and ultimately, I believe will be independent from 
China. It is probably not going to happen next week or next 
month or next year, but this fiction that it is a separate 
country is something that at some point needs to be put to 
rest.
    I say that as a former founding member of the Taiwan Caucus 
and a present member of the Taiwan Caucus. I see my colleague 
from Virginia kind of cringed there because he knows we are 
probably stepping on some toes in Beijing, but to hell with 
Beijing. I yield back the balance of my time.
    Mr. Salmon. Any other member seek recognition to speak on 
these items?
    Mr. Connolly. Mr. Chairman?
    Mr. Salmon. Yes.
    Mr. Connolly. I always have respect for my friend from Ohio 
and his insights, but I would say as cochairman of the Taiwan 
Caucus, I think we need to work to enhance both Taiwan's 
defense and to support Taiwan in the path it has chosen as a 
democracy. My first visit to Taiwan, Taiwan frankly was not a 
democracy, and it has come a long, long way. And there are 
cultural ties that both unite and separate the mainland and 
Taiwan. And I would just caution, however, that there are 
things that can provoke and that make the task of 
reconciliation and support for Taiwan's unique path more 
difficult. And that would be the only reason I cringed a little 
bit, and my friend saw it, because words we say here are 
magnified in the Taiwan Straits. And we obviously want to be 
supportive, and not unwittingly do anything that could be, as I 
said, provocative. Thank you.
    Mr. Salmon. Thank you. Any other member seek recognition on 
either of these two measures? If not, we will get to business. 
Hearing no other requests for recognition, the question occurs 
on adopting the items under consideration en bloc. All those in 
favor, say aye. Opposed, say no. In the opinion of the Vhair, 
the ayes have it, and the en bloc items are approved.
    Without objection, H.R. 1853 and H. Res. 235, as amended, 
will be reported favorably to the full committee. And the staff 
is directed to make any technical and conforming changes. I 
would like to thank all of our members and staff for the 
assistance and cooperation that went into today's markup. The 
subcommittee stands adjourned.
    [Whereupon, at 2:30 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
